     ROLE MODELS AMERICA, INC.

                    ***

          AUDIT REPORT ON
 U.S. DEPARTMENT OF LABOR GRANT
        NUMBER AZ-10612-00-60



      Costs Claimed for Reimbursement for
the Period June 5, 2000 Through March 31, 2001




            FINAL REPORT




                                 Report Number: 21-01-200-03-390

                                 Date Issued: September 27, 2001
                                            TABLE OF CONTENTS


                                                                                                                       Page

ACRONYMS AND GLOSSARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii

INTRODUCTION AND BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

OBJECTIVES AND SCOPE OF AUDIT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

ASSISTANT INSPECTOR GENERAL’S REPORT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

FINDINGS AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

    Finding

    No. 1 Indirect Costs Were Improperly Charged to the DOL Grant . . . . . . . . . . . . . . . . . . . 6

    No. 2 Internal Control Problems Exist in RMA’s Accounting System . . . . . . . . . . . . . . . . . 9

    No. 3 Unsupported Direct Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

    No. 4 Travel Costs Were Incurred Prior to the Grant Period . . . . . . . . . . . . . . . . . . . . . . 15

EXHIBIT

    Exhibit A - Financial Status Report for the Quarter Ending March 31, 2001 . . . . . . . . . . . 17

SCHEDULES

    Schedule A - Proposed and Audit Recommended Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

    Schedule B - Questioned Indirect Costs Charged to DOL Grant . . . . . . . . . . . . . . . . . . . . . 19

APPENDIX

    Appendix - RMA’s Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
                                      ACRONYMS



CCMS -         College Corps Management Services
CEO -          Chief Executive Officer
CFR -          Code of Federal Regulations
DOL -          U.S. Department of Labor
ETA -          Employment and Training Administration, U.S. Department of Labor
FSR -          Financial Status Report
OMB -          Office of Management and Budget
OIG -          Office of Inspector General, U.S. Department of Labor
RMA -          Role Models America, Inc.
WIA -          Workforce Investment Act



                                      GLOSSARY


Direct Costs      -    Costs that can be identified specifically with a particular cost objective.

Indirect Costs    -    Costs which cannot be identified with a single, final cost objective but
                       are identified with two or more final cost objectives. Such costs are
                       combined into groupings for distribution to final cost objectives.

Questioned Costs -     Costs that are questioned because:

                       (a) the expenditure is an alleged violation of a provision of a law,
                           regulation, contract, grant, cooperative agreement, or other
                           agreement or document; or

                       (b) not supported by adequate documentation; or

                       (c) expenditures were unnecessary or unreasonable.




                                              i
                                   EXECUTIVE SUMMARY


The U.S. Department of Labor (DOL), Office of Inspector General (OIG), performed a financial
and compliance audit of the direct costs claimed for reimbursement by Role Models America, Inc.
(RMA), under DOL Grant Number AZ-10612-00-60. We also reviewed the indirect costs
charged to the grant; however, we determined that indirect costs for this grant were not
appropriate as RMA had only one grant (Workforce Investment Act) and one source of funds
(DOL). The program was audited for the period June 5, 2000 through March 31, 2001.

Under the authority of the Workforce Investment Act of 1998 (WIA), the Department of Labor’s
Employment and Training Administration (ETA) awarded RMA a grant to provide education,
training and other services, in a Job Corps setting, to out-of-school youth facing serious barriers
to employment throughout the United States and its territories. This grant is for 2 years, ending
May 31, 2002, and $10 million.


 RESULTS OF THE FINANCIAL AND COMPLIANCE AUDIT


For the audit period, RMA reported costs of $6.65 million, however, its general ledger only
supported costs of $4.6 million, which we audited. Of the audited costs, we question $262,258 as
follows:

Finding No. 1: Indirect Costs Were Improperly Charged to the DOL Grant

RMA charged the DOL grant $333,197 in indirect costs as administrative fees. We are
questioning $183,959 of the costs charged, because they were either personal expenses of RMA’s
President and CEO, payments for services that did not benefit the DOL grant, or payments that
lacked supporting documentation. The questioned costs consist of: (1) $30,651 in repayment of
loans, $7,000 in consulting fees, $50,336 in mortgage payments, $22,903 in rental payments,
$2,512 in contract fees, $7,089 in utility payments, $44,257 in salary expenses, $17,925 in
furniture costs, and $1,286 in other expenses.

In response to the draft report, RMA stated that the indirect costs were used to compensate the
CEO and President of RMA, and that they had a definitive right to compensation. RMA also
stated that the issue of indirect costs should be dealt with as an observation, not as a finding.

We did not question the salaries and appropriate fringe benefits paid to the CEO and President.
What we did question were the personal costs of the CEO and President that were charged to the




                                                -ii-
DOL grant, as well as certain other costs. Since RMA did not respond to these costs, our
recommendation remains unchanged. As to the indirect costs, because RMA operates only one
program it is not authorized to collect indirect costs.

Finding No. 2: Internal Control Problems Exist in RMA’s Accounting System

Our review of RMA’s accounting system disclosed that RMA had not recorded in its general
ledger drawdowns, non-cash disbursements, nor any entries from its payroll and fund-raising bank
accounts. In addition, RMA had posted a significant number of transactions to wrong accounts
and could not provide supporting documentation for the more than $2 million in accruals that it
had reported to DOL for the quarter ending March 31, 2001. Further, RMA maintained excessive
cash balances over the entire period of the audit and had not reconciled its bank statements during
this period. RMA needs to hire an accountant with the proper skills and experience to operate
and maintain an accrual based cost accounting system.

In response to the draft report, RMA stated that there was only one main instance of excessive
cash during a 1 or 2-month period. In addition, RMA stated that the fund-raising account was
not its responsibility, and that the majority of the improper recordings were entries to an account
titled contingencies. RMA acknowledged that its FSR was inaccurate, but stated that its accrual
accounting system is now operational and it can now provide correct financial data. RMA also
stated that it was never instructed to maintain supporting documentation for the accruals reported
on the FSR.

During our audit we calculated RMA’s daily cash balances for 4 consecutive months and found
that it started out in the first month (July 2000) at $583,000 and increased each month. As stated
in our finding, RMA’s 3-day average expenditures were less than $90,000 for the 9-month audit
period. RMA’s bank statements show it as the owner of the fund-raising account. As to
recording expenditures to wrong accounts, RMA addressed the contingency account, but failed to
address the other numerous accounts with improper postings. To resolve this issue, RMA must
institute procedures that ensure all future costs are recorded correctly and adjust all incorrect
postings. RMA indicated that its accrual accounting system is operational; therefore, it should be
submitting corrected FSRs.

Finding No. 3: Unsupported Direct Costs

We question $77,912 charged as direct costs to the DOL grant, because RMA was unable to
provide us with documentation to properly support these costs. The documentation that was
lacking consisted of time sheets, invoices, receipts, consulting agreements, and descriptions of
services provided for the following expenditures billed to the DOL grant: (1) $9,189 in consulting
fees, (2) $1,223 in staff travel, (3) $52,439 in legal services, and (4) $15,061 in hotel expenses.




                                                -iii-
In response to the draft report, RMA stated that it has provided documentation to support
$29,539 in legal costs, over $16,000 in hotel expenses, and $10,000 for the high school
curriculum. In addition, RMA said it is looking for the documentation to support the consulting
costs and that it cannot locate the documentation for the travel costs.

Our review of the documentation submitted by RMA disclosed that: (1) the documentation
submitted for the legal fees showed these costs were incurred prior to RMA obtaining the DOL
grant and prior to entering into an agreement to rent property on Fort Richie. Therefore, these
costs and the two retainer fees paid to two law firms, for which RMA did not provide
documentation, remain questioned, (2) the documentation for the hotel expenses was not in
sufficient detail to resolve the costs; therefore, these costs remain questioned, and (3) the
documentation submitted for the high school curriculum supported the costs; therefore, these
costs are allowed. The consulting fees and the travel costs remain questioned as RMA has not
provided supporting documentation.

Finding No. 4: Travel Costs Were Incurred Prior to the Grant Period

RMA charged the DOL grant travel expenses ($387) incurred prior to the signing of the grant.
We question these costs because they were not authorized by the grant officer.

In response to the draft report, RMA acknowledged that the travel expenses were incurred prior
to the grant and stated it will seek approval from the grant officer.

Our recommendation remains unchanged.




                                               -iv-
                            INTRODUCTION AND BACKGROUND



Role Models America, Inc.

Role Models America, Inc. (RMA), was established on July 26, 1991, in Maryland, as a nonprofit
corporation. Its founder envisioned an alternative college prep nontraditional high school to assist
high school dropouts obtain their high school diplomas and continue into higher education. RMA
received its first Federal grant (DOL) on June 9, 1999, in the amount of $10 million.

In January 1999, RMA submitted a proposal to the Employment and Training Administration
(ETA) to operate a Role Model Academy in the amount of $10 million. RMA based its proposal
on Section 169g of WIA and claimed that Congress intended that they be awarded the grant.
RMA stated that the legislation was written for them, and used as support the Conference
Committee’s language in which it approved DOL’s appropriations for FY 2000. The Committee
encouraged DOL to make available funds and technical assistance to the Role Models Academy.

RMA is currently located on the grounds of Fort Richie, a closed military base in Cascade,
Maryland. The students it serves consist of a diverse group of young men and women from all
over the United States. These students are to be referred by their Congressional Representatives.
As part of its training, RMA utilizes a military-style model emphasizing leadership skills and
discipline.

To attend RMA an individual must: (1) be between the ages of 14 and 21 at the date of
admission, (2) be a United States’ citizen or legal resident, (3) have dropped out of school during
the 9th through 12th grades, (4) obtain recommendations from his/her previous high school
administrator/counselor, (5) not have a criminal record, (6) be alcohol and drug free, and
(7) demonstrate a strong commitment to obtaining a high school diploma and an interest in
attending college.

RMA’s curriculum includes vocational training and secondary school course work leading to a
high school diploma (or the equivalent) to prepare those youths with the requisite aptitude and
interest for college. Mentors, academic tutors and counselors serve as role models for the
students.




                                                -1-
College Corps Management Services

College Corps Management Services (CCMS) was established in June 2000, as a for-profit
corporation, and is located in Waynesboro, Pennsylvania. It currently provides administrative
services to RMA. The CEO for RMA is the Director of CCMS.

CCMS’ purpose is to function as the facilitator and/or coordinator of all for-profit programs,
activities and services associated with RMA. CCMS was established to promote, foster,
encourage and sponsor activities to build the youths character and to advance the educational,
vocational, recreational, civic betterment and social welfare of America’s youth through
education, mentoring and annual motivational programs and activities.

RMA entered into an agreement with CCMS in June 2000, to carry out its administrative
functions at a cost of $32,051 a month. RMA then charged these costs to the DOL grant as
indirect costs.




                                               -2-
                           OBJECTIVES AND SCOPE OF AUDIT


The primary objectives of our audit were to determine whether the costs claimed for
reimbursement by RMA for the period June 5, 2000 through March 31, 2001, under the DOL
grant: (a) were reasonable, allowable, and allocable under the cost principles set forth in OMB
Circulars A-110 and A-122, and (b) met the terms and conditions of the grant.

Our audit was performed in accordance with generally accepted auditing standards and the
Government Auditing Standards issued by the Comptroller General of the United States. Our
audit included such tests of the accounting records and other accounting procedures as we
considered necessary in the circumstances. Statistical sampling was not used because the audit
universe (number of transactions and/or records) related to individual accounts or cost elements
rendered its use impractical.

As required by the Government Auditing Standards and the American Institute of Certified Public
Accountants’ Statements on Auditing Standards Nos. 54, Illegal Acts by Clients and 82, The
Auditor’s Responsibility to Detect and Report Errors and Irregularities, we designed the audit
to provide reasonable assurance of detecting instances of abuse, potential fraud or inefficient
practices that could result in increased costs to the Federal Government.

Our audit was performed using the criteria we considered relevant. These criteria included those
established by the Federal Government in OMB Circulars A-110, Uniform Administrative
Requirements for Grants and Agreements with Institutions of Higher Education, Hospitals and
Non-Profit Organizations, and A-122, Cost Principles for Non-Profit Organizations. To meet
the aforementioned objectives, we reviewed selected transactions, records and internal controls to
determine RMA’s compliance with applicable laws and regulations, as well as the incidence, if
any, of program abuse that might warrant further review or action by the OIG.

 ENTRANCE AND EXIT CONFERENCES

We held an entrance conference with RMA officials on April 24, 2001, to discuss the purpose of
our audit. Our fieldwork was performed at RMA’s office in Cascade, Maryland, during the
period April 24 through July 13, 2001. We held an exit conference with these same officials on
July 27, 2001, to discuss our findings and to obtain their comments.

On September 27, 2001, RMA provided written comments on a draft of this report, which have
been considered in finalizing this report. RMA’s comments, without the supporting
documentation, have been included as an Appendix to this report.




                                                -3-
Ms. Emily S. DeRocco
Assistant Secretary
 for Employment and Training
U.S. Department of Labor
200 Constitution Avenue, N.W.
Washington, DC 20210


                    ASSISTANT INSPECTOR GENERAL’S REPORT


We audited the costs claimed for reimbursement, as presented in the Financial Status Report
(FSR) submitted to the U.S. Department of Labor, by Role Models America, Inc. (RMA), for the
period June 5, 2000 through March 31, 2001 (Grant No. AZ-10612-00-60). The costs claimed
are the responsibility of RMA. Our responsibility is to express an opinion on the accuracy of the
schedule of costs claimed based on our audit.

RMA has not maintained certain accounting and supporting documents relating to accrued grant
transactions. Accordingly, we were unable to extend our auditing procedures sufficiently to
determine the extent to which the financial statements may have been affected by these conditions.

Since RMA does not maintain certain accounting records and supporting documents, the scope of
our work was not sufficient to enable us to express, and we do not express, an opinion on the
Financial Status Report referred to in the first paragraph.

Compliance

As part of obtaining reasonable assurance about whether RMA’s schedule of costs claimed is free
of material misstatement, we performed tests of its compliance with certain provisions of laws,
regulations, and contracts, noncompliance with which could have a direct and material effect on
the determination of the amounts claimed. However, providing an opinion on compliance with
those provisions was not an objective of our audit and, accordingly, we do not express such an
opinion. The results of our tests disclosed instances of noncompliance that are required to be
reported under the Government Auditing Standards, and are described in the Findings and
Recommendations section of this report.




                                               -4-
Internal Control

In planning and performing our audit, we considered RMA’s internal control over financial
reporting in order to determine our auditing procedures for the purpose of expressing our opinion
on the schedule of costs claimed and not to provide assurance on the internal control over
financial reporting. Our consideration of the internal control over financial reporting would not
necessarily disclose all matters in the internal control over financial reporting that might be
reportable conditions. Under standards issued by the American Institute of Certified Public
Accountants, reportable conditions are matters coming to our attention relating to significant
deficiencies in the design or operation of the internal control that, in our judgment, could
adversely affect the grantee’s ability to record, process, summarize and report financial data
consistent with the assertions by management in the financial statements. Material weaknesses are
reportable conditions in which the design or operation of one or more of the internal control
components does not reduce to a relatively low level the risk that misstatements in amounts that
would be material in relation to the financial statements being audited may occur and not be
detected within a timely period by employees in the normal course of performing their assigned
functions.

As discussed in the Findings and Recommendations section of this report, we identified a material
weakness, the improper accounting of accrued expenditures (as described in Finding 2), and other
conditions involving the internal control and its operation that we consider to be reportable
conditions.

This report is intended solely for the information and use of the U.S. Department of Labor and
RMA, and is not intended to be used by anyone else. This restriction, however, is not intended to
limit the distribution of this report which, when issued, becomes a matter of public record.

We held an entrance conference with RMA officials on April 24, 2001. On the last day of our
fieldwork July 27, 2001, we held an exit conference with these same officials. This report is dated
July 27, 2001, which was the last day of our audit fieldwork. On September 27, 2001, RMA
provided written comments on a draft of this report, which have been considered in finalizing this
report. RMA’s comments, without the supporting documentation, have been included as an
Appendix to this report.




JOHN J. GETEK
Assistant Inspector General
 for Audit
July 27, 2001




                                                -5-
                             FINDINGS AND RECOMMENDATIONS




 Finding No. 1: Indirect Costs Were Improperly Charged to the DOL Grant


During our review of RMA’s grant, we noted that RMA had proposed a 4 percent indirect cost
rate as part of its budget. At the entrance conference, we asked RMA about the number of
programs and funding sources they were administering. RMA informed us that there was only
one program (WIA) and one funding source (DOL). Since indirect costs are costs not readily
identifiable with a particular cost objective, we informed RMA that operating a single program did
not entitle it to charge indirect costs, that it should meet with the grant officer to revise its budget,
and that we would treat all costs as direct costs. RMA contracted with CCMS for administrative
services at a cost of $32,051 a month. It was these costs that RMA reported as indirect costs.

We requested documentation to support the monthly administrative costs charged by CCMS.
Our review of the documentation provided (CCMS’ general ledger, bank statements and certain
supporting documentation) disclosed that numerous costs were personal costs of RMA’s
President and CEO, and costs of CCMS employees that should not have been charged to the
DOL grant. In addition, there were certain costs that were not adequately supported. These
costs are described below.

Federal Regulation Regarding Support for Claimed Costs

The Office of Management and Budget Circular A-122, Cost Principles for Non-Profit
Organizations, Attachment B, Selected Items of Cost, Paragraph 18, Goods or Services for
Personal Use, and Paragraph 19, Housing and Personal Living Expenses, provides the following:

            Paragraph 18 - Costs of goods or services for personal use of the
            organization’s employees are unallowable regardless of whether the cost
            is reported as taxable income to the employees.

            Paragraph 19 - Cost of housing (e.g., depreciation, maintenance, utilities,
            furnishings, rent, etc.) Housing allowances and personal living expenses
            for/of the organization’s officers are unallowable as fringe benefit or
            indirect costs regardless of whether the cost is reported as taxable income
            to the employees.

Loans




                                                  -6-
CCMS made partial loan repayments to various individuals and a credit union totaling $30,651.
We asked CCMS for the contract or loan agreements, the bank statements showing where and
when the receipt of the funds had been recorded, documentation to show how the funds were
spent, and documentation to show how those expenditures benefited the DOL program. CCMS
has not provided us with any of this information, therefore, we question $30,651.

Consultant Fees

CCMS made payments totaling $7,000 to two individuals for consulting work. We asked for
copies of the contracts, documentation supporting the work performed, and documentation
supporting how these services benefited the DOL program. CCMS has not provided the
requested information and we question the $7,000.

Mortgage Payments

CCMS made payments totaling $50,336 to a mortgage company. When we asked about the
payments, the CCMS Director stated that this was a house the RMA President and CEO owned in
Mitchellville, Maryland. She further stated that the house had been mortgaged to obtain funding
for the program. We asked for the bank statements showing where and when the receipt of the
funds had been recorded, documentation to show how the funds were spent, and documentation
to show how those expenditures benefited the DOL program. CCMS has not provided us with
the requested information, and we question the $50,336.

Rent Payments

CCMS made payments totaling $12,903 for rent in Pennsylvania. When we asked about the
payments, the CCMS Director stated that these were payments for a house the RMA President
and CEO were renting in Waynesboro, Pennsylvania. We also found a payment for rent and
security deposit of $10,000 paid to the Director of CCMS. Since these are personal costs of the
President and CEO of RMA, we are questioning the $22,903.

Contractor Services

CCMS paid $2,512 to a company for a water conditioning system. When we asked the CCMS
Director about these costs, she stated the costs were for a water conditioning system for the
Waynesboro residence. Since these are personal costs of the President and CEO of RMA, we are
questioning the $2,512.




                                               -7-
Utility Payments

CCMS made utility payments totaling $7,089 during the audit period. These payments were for
telephone usage with a number of telephone companies, electricity, and to reimburse two
employees for out-of-pocket payments for utilities. The documentation supplied by CCMS
showed that $6,089 of these costs represented telephone costs and electricity used at the
Mitchellville and Waynesboro residences. We question the $6,089 because these were personal
costs of the RMA President and CEO.

The remaining $1,000 was for reimbursing two employees for their out-of-pocket costs. There
was no documentation in the files to indicate why these employees were reimbursed for their
utility costs, and CCMS has not provided us with documentation showing why these costs should
have been charged to the DOL grant. Therefore, we question the $1,000.

Salaries and Fringe Benefits

CCMS paid $49,488 in salaries and fringe benefits to two CCMS staff. During the majority of
our audit period, these two individuals were full-time students at an out-of-state University. They
were paid 80 hours every 2 weeks while attending school. Although the CCMS Director stated
that these two individuals had the capability of working full-time and attending school full-time,
we were never provided with any evidence of the full-time work they had performed for the DOL
program. According to the university’s calendar, there were 20 days that the students were off
during the school year. Therefore, we calculated the staff’s salary for the 20 days and allowed
that amount. We question the difference ($44,257).

Furniture

CCMS paid $17,925 to purchase furniture. When we asked to see the furniture the CCMS
Director stated it was used to furnish the Waynesboro residence. Since these were personal costs
of the President and CEO of RMA, we question the $17,925.

Other Costs

CCMS paid $850 for filing fees to obtain a trademark and $436 to repair a vehicle owned by one
of its employees. Since these are personal costs of RMA and the employee, we question the
$1,286.

Recommendation:

We recommend that the Assistant Secretary for ETA recover the $183,959 questioned in this
finding and any similar costs incurred subsequent to our audit period.




                                                -8-
Auditee’s Response

In response to the draft report, RMA stated that the indirect costs were used to compensate the
CEO and President of RMA. These persons had a definitive right to compensation, because they
did not receive salaries from RMA, but rather indirect funds were used to compensate them
through the College Corp Management Services, Inc., a parent corporation to RMA. RMA
stated that this situation should be dealt with as an observation of an issue requiring administrative
resolution, and not as a finding, especially since RMA notified the OIG of this situation.

Auditors’ Comments

We agree with RMA that the compensation (salaries and appropriate fringe benefits) paid to the
CEO and President for their time was appropriate. We did not question these costs in our draft
report. The costs we questioned were the personal costs of the CEO and President that were
charged to the grant, as well as other costs that were either not supported or should not have been
charged. RMA did not address these costs; therefore, our recommendation remains unchanged.

Indirect costs are costs incurred for common or joint objectives and cannot be readily identified
with a particular final cost objective. Although DOL approved an indirect cost rate, any costs
allocated to an indirect cost pool had to have met the above definition. As stated in our report,
RMA operated a single program and was not entitled to indirect costs. Until additional funding is
obtained, all allowable costs chargeable to the DOL grant must consist of direct costs that can be
specifically identifiable with the DOL grant.


 Finding No. 2: Internal Control Problems Exist in RMA’s Accounting System


RMA’s accounting system, as of March 31, 2001, had significant deficiencies. Our review
disclosed that RMA had: (1) not recorded drawdowns, non-check disbursements (wire transfers,
bank fees, etc.), nor any entries from its payroll and fund raising bank accounts, into the general
ledger, (2) posted a significant number of transactions to wrong accounts, and (3) failed to
document the accrued expenditures it reported to DOL on the March 31 Financial Status Report.

Excessive Cash Balances

Since RMA had not recorded its revenues, non-check disbursements, and entries from its payroll
and fund raising bank accounts, we relied on the bank statements to determine whether RMA was
maintaining reasonable cash balances. Our review disclosed that excessive cash balances had been
maintained since early in the program. The monthly ending balances ranged from a low of
$412,452 in June 2000 to a high of $1,816,521 in January 2001. We then calculated the average




                                                 -9-
daily cash balance for the month of March 2001 and found RMA had maintained a daily cash
balance of $1,527,685. RMA’s 3-day average expenditures ranged from $23,366 to $84,778 over
the 9-month period. This is the amount of cash RMA should have had on hand at any one time.

In addition, RMA did not begin reconciling its bank statements until June 2001. Therefore, RMA
did not have internal controls in place to properly manage its funds, as described above.

OMB Circular A-110, Uniform Administrative Requirements for Grants and Agreements With
Institutions of Higher Education, Hospitals, and Other Non-Profit Organizations, Subpart C -
Post-Award Requirements, Section .22 (b) provides

           Cash advances to a recipient organization shall be limited to the minimum
           amounts needed and be timed to be in accordance with the actual,
           immediate cash requirements of the recipient organization.

Unreliable Accounting Records

We identified a number of improper postings in RMA’s accounting records and provided RMA
with a list of only those transaction tested. RMA contracted with a CPA firm to make the
adjusting entries; however, we found that the adjustments made were only those that we had
identified. RMA now records drawdowns, non-check disbursements and its payroll; however, it
still does not record its fund raising income and expenses. Until RMA ensures that it has
corrected its records, these records cannot be relied upon to report its line item expenditures and
to determine conformance with budget limitations.

Reported Accruals are not Supported

RMA’s FSR for the quarter ending March 31, 2001, reported accrued costs of $6.65 million. We
asked for documentation supporting this amount and were told that the working documents for
developing this report had not been saved and that RMA was not aware that it was required to
save the documents. RMA’s general ledger for this reporting period reflected expenditures of
$4.6 million. Therefore, RMA reported over $2 million of accrued costs that are not documented.
RMA now has the capability for recording accruals built in its accounting system. To resolve this
internal control weakness, RMA needs to hire an accountant with the knowledge and skills to
operate and maintain an accrual based cost accounting system. In addition, RMA will need to
resubmit its March 31 FSR that accurately reflects its accrued expenditures.

The Office of Management and Budget Circular A-122, Cost Principles for Non-Profit
Organizations, Attachment A, General Principles, Paragraph A.2, Factors Affecting Allowability
of Costs, and Paragraph A-G, provides the following:




                                                -10-
           A. Be reasonable for the performance of the award and be allocable
           thereto under these principles. B. Conform to any limitations or
           exclusions set forth in these principles or in the award as to types or
           amount of cost items. C. Be consistent with policies and procedures that
           apply uniformly to both federally-financed and other activities of the
           organization. D. Be accorded consistent treatment. E. Be determined in
           accordance with generally accepted accounting principles (GAAP). F.
           Not be included as a cost or used to meet cost sharing or matching
           requirements of any other federally-financed program in either the current
           or a prior period. G. Be adequately documented.
Recommendation:

We recommend that the Assistant Secretary for ETA take corrective action to ensure RMA:
(1) reduces its cash balance to immediate needs, (2) adjusts all entries that were improperly
posted, (3) hires a qualified accountant to maintain RMA’s records, and (4) submits a corrected
FSR for the period ending March 31, 2001.

Auditee’s Response

In response to the draft report, RMA stated there was only one main instance of excessive cash
during a 1 to 2-month period in which RMA paid several large bills, including a double payment
for rent. RMA also stated that: (1) this was an unusual situation; (2) it did not have extensive
operating experience, and (3) it had not reached a point of normal daily operations, where three
days of cash could be closely estimated. RMA also stated that once brought to their attention,
RMA followed the OIG auditors advice to reduce its cash position by paying bills without
drawing down Federal funds.

In response to the fund-raising account, RMA stated that this account was not an RMA account,
it belonged to College Corps., and this was not RMA’s responsibility.

In response to improper postings, RMA stated that it maintains an account to track unexpected
expenses and calls it contingencies. RMA stated that the majority of the improper postings were
entries to this account, and that there were a few duplicate entries. RMA also stated that the OIG
is wrong to insinuate that widespread postings to wrong accounts exist throughout the system.

As to the unsupported accruals, RMA acknowledged that the FSR was inaccurate. The
overstatements were caused by the improper inclusion of funds committed under contract, but not
expended. RMA further stated that it had requested clarification on how to fill out the FSR and
had not received a definitive answer. Further, the financial reports provided to DOL were always
acknowledged to be “best estimates” using crude methods and incomplete data, and never
represented to be strict/exact accounting calculations. RMA stated that the system is now in



                                               -11-
place and it provided the OIG auditors with corrected financial data through March 31, 2001. In
addition, RMA stated it was never instructed to save working papers for the FSR’s.

Auditors’ Comments

During the audit we found a number of months where RMA’s cash balances were excessive. We
had calculated the average daily cash balances for the months July through October 2000 and
found the average daily cash balance increased each month from July which had an average daily
cash balance of $583,608 to October which had an average daily cash balance of $1,174,706. As
discussed in the finding, during March 2001 RMA had daily cash balances that exceeded $1.5
million. In addition, the ending bank balances for each of the 9-months we audited were
excessive. As discussed in our finding, RMA did not need more than $90,000 on hand at any one
time, except when its quarterly rent payments were due.

Our review of RMA’s bank statements showed that it is the owner of the fund-raising account.
Therefore, RMA does have responsibility for this account.

In responding to the issue of posting expenditures to the wrong accounts, RMA refers to the
contingency account as having the majority of improper postings; however, there were other
accounts, (for example leases, equipment, supplies, and discretionary) in which expenditures were
incorrectly recorded. Unless RMA institutes procedures that ensure all future costs are charged
to the appropriate account and adjusts all entries that were incorrectly posted, it will not be able
to rely on the line item expenditures to determine conformance with its budget limitations, or
know when to request budget modifications.

RMA indicated that its accrual accounting system is operational. Therefore, RMA should file an
amended FSR for March 31, 2001 to reflect an accurate reporting of accrued expenditures.

Our recommendations remain unchanged.


 Finding No. 3: Unsupported Direct Costs


Our review of the direct costs claimed for reimbursement by RMA under its DOL grant resulted
in questioning $77,912, because RMA was unable to provide us with adequate supporting
documentation for these costs. These expenditures were for consulting services, travel and
contracted services, and are discussed in more detail below.


Federal Regulation Regarding Support for Claimed Costs




                                                -12-
Office of Management and Budget Circular A-122, Cost Principles for Non-Profit Organizations,
Attachment A, General Principles, Paragraph A.2, Factors Affecting Allowability of Costs, and
Paragraph G provides the following:

           G. Be adequately documented.

Office of Management and Budget Circular A-110, Uniform Administrative Requirements for
Grants and Agreements With Institutions of Higher Education, Hospitals, and Other Non-Profit
Organizations, Subpart C - Post-Award Requirements, Section .21, Standards for financial
management systems (b)(7)provides the following:

           Accounting records including cost accounting records that are supported
           by source documentation.

Consulting Services

Our review of RMA’s general ledger disclosed that RMA paid two individuals $7,000 and
$2,189, respectively, for consulting services. We asked for the contracts, time sheets, progress
reports and any other information available that could support the payments. RMA has been
unable to locate any of this information. Therefore, we question the $9,189.

Travel

We audited the travel costs charged to the DOL grant and found payments made to a hotel
totaling $15,061. These payments were made over a 3-month period to cover lodging costs for a
number of persons, some who were employees of RMA, and others who we could not identify.
We asked for documentation supporting: (1) why the lodging costs were incurred, (2) why it was
necessary for some of these individuals to incur these costs over the entire 3-month period,
(3) how the individuals who could not be identified as having any relationship with RMA could
have their lodging costs charged to the DOL grant, and (4) a breakout of the costs by each
individual. There was no documentation on file to show that any of these costs were directly
attributable to the functions of RMA, and RMA has yet to provide us with any of the
documentation requested. Therefore, we question the $15,061.

Our audit also disclosed $1,223 in travel costs for which there was no supporting documentation.
The only information available were the cancelled checks indicating the amounts paid to five
individuals. Therefore, until the proper supporting documentation is provided, we question the
$1,223.




                                               -13-
Contracted Services

Our audit of the contracted services charged to the DOL grant disclosed a number of payments
made for legal services. Two of these payments totaling $52,439 did not have adequate
documentation. Although there were invoices from the law firm requesting payment, the invoices
did not contain an explanation of the services provided, nor how the services benefited the DOL
program. The invoices on file contained both current charges and an unpaid balance, which was
considerably more than the current charge. In addition, the initial agreement was for legal
services that were to be provided before RMA obtained the DOL grant. Until adequate
documentation is provided we question the $52,439.

We also found a payment ($10,000) made to a high school for the purchase of the school’s
curriculum. The check was issued on August 21, 2000. However, a letter from the high school
indicating receipt of the check was dated June 21, 2000. We have asked RMA for clarification on
this issue. Until we receive an appropriate explanation, we question the $10,000.

Recommendation:

We recommend that the Assistant Secretary for ETA:

   1. seek documentation from RMA to support the $77,912 questioned, and recover any costs
      that RMA is unable to support, and

   2. institute a policy that requires providing extensive technical assistance and monitoring of
      first time grantees or contractors in their first year of operation.

Auditee’s Response

In response to the draft report, RMA stated that it has provided documentation to support:
(1) over $56,000 in legal fees, (2) over $16,000 in hotel expenses, and (3) the $10,000 questioned
pertaining to the high school curriculum. In addition, RMA stated it will continue to seek
documentation for the $9,189 in consulting fees that were questioned, and acknowledged that it
will not be able to locate documentation for $1,223 of staff travel, as these individuals are no
longer RMA employees.

Auditors’ Comments

RMA provided documentation to support $29,539 in legal fees. The documentation shower that
these costs were incurred prior to the grant award. They represent costs of attempting to secure
space at a closed Naval facility, not Fort Richie where the grant is currently being administered.
Therefore, these costs remain questioned. Also, we have not received documentation to support




                                               -14-
the remaining legal costs, which consisted of retainer fees for two law firms. Therefore, the legal
fees remain questioned. RMA provided documentation in support of the hotel expenses.
However, the documentation was not in sufficient detail to allow us to determine who stayed in
each room, why additional rooms were needed, or what business activity was performed.
Therefore, these cost remain questioned.

RMA provided documentation to support the high school curriculum. The documentation
supported these costs; therefore, the $10,000 is allowed. Because RMA has not been able to
locate documentation to support the consultant fees, or the travel costs, these costs remain
questioned.

We have reduced the amount questioned in this finding from $87,912 to $77,912, for the accepted
high school curriculum. The remainder of the recommendation remains unchanged.



 Finding No. 4: Travel Costs Were Incurred Prior to the Grant Period

RMA paid travel expenses of an individual before the grant was signed and expenditures were
authorized. The travel expense ($387) was incurred for the period May 25 - 28, 2000, while
performance under the grant did not begin until June 5, 2000. Therefore, these costs are
questioned, because RMA did not receive approval from the awarding agency.

   OMB Circular A-122, Cost Principles for Non-Profit Organizations, Attachment B, Selected
   Items of Cost, Paragraph 38, Pre-Award Costs, provides the following:

       Paragraph 38 - Pre-award costs are those incurred prior to the effective date of
       the award directly pursuant to the negotiation and in anticipation of the award
       where such costs are necessary to comply with the proposed delivery schedule or
       period of performance. Such costs are allowable only to the extent that they
       would have been allowable if incurred after the date of the award and only with
       the written approval of the awarding agency.

Recommendation:

We recommend that the Assistant Secretary for ETA recover $387 from RMA.




Auditee’s Response




                                               -15-
In response to the draft report RMA acknowledged that $387 of travel costs were spent before
the grant started, and will seek approval from the grant officer

Auditors’ Comments

Our recommendation remains unchanged.




                                             -16-
                                                                                      EXHIBIT A

                                ROLE MODELS AMERICA, INC.
                                  Grant No. AZ-10612-00-60
                                 June 5, 2000 - March 31, 2001



                                         Cost              Cost
                                        Claimed         Per General     Unsubstantiated
                                       on SF269           Ledgerr          Accrual2
            Net Outlays             $ 6,650,000.00     $ 4,602,803.05   $ 2,047,196.95



1
    See Schedule A for details.
2
    Role Models America, Inc., did not supply documentation to support these costs.




                                                -17-
                                                                   Schedule A

                    ROLE MODELS AMERICA, INC.
                 Proposed and Audit Recommended Costs
                       Grant No. AZ-10612-00-60
                      June 5, 2000 - March 31, 2001

                                  Costs           Costs           Costs
                             Claimed by    Accepted by    Questioned by
Cost Category                     RMA          Auditors        Auditors
Salaries                    $1,138,292        $954,333        $183,959
Fringe Benefits - Other         94,356           94,356               0
Fringe Benefits                  7,263            7,263               0
Advances                           150              150               0
Relocation                      11,367           11,367               0
Travel                          91,975           75,304          16,671
Per Diem                        18,383          18,383                0
Bonding/Supplies                69,969          69,969                0
Advertising                      1,009           1,009                0
Discretionary/Postage           79,890          79,890                0
Building Maintenance            44,633          44,633                0
Quartermaster Supplies          50,283          50,283                0
Uniforms                        48,000          48,000                0
Equip Purchases                412,988         412,988                0
Rent/Leases                  1,066,839      1,066,839                 0
Main Vehicle Purchase            5,661           5,661                0
Vehicle Maintenance              9,679           9,679                0
Main Equipment Purchase          7,085           7,085                0
Athletic                           719             719                0
Student Life                    23,490          23,490                0
Academic Text                   51,218          51,218                0
Accounting Contract             10,000          10,000                0
Library Books                   57,957          57,957                0
Utilities                      166,950         166,950                0
Contracted Services            328,642          328,642               0
Legal Services                 104,156           51,717          52,439
Consultants                    545,408          536,219           9,189
Other                          156,442          156,442               0
Total                       $4,602,804     $4,340,546         $262,258




                                 -18-
                                                     Schedule B

        ROLE MODELS AMERICA, INC.
Questioned Indirect Costs Charged to the DOL Grant
            Grant No. AZ-10612-00-60
          June 5, 2000 - March 31, 2001


             Type of Payment         Amount
   Repayment of Loans               $ 30,651
   Consultants                          7,000
   Mortgage                            50,336
   Rent                                22,903
   Furniture                           17,925
   Contractor                           2,512
   Utilities                            7,089
   Salary Expenses                     44,257
   Other Costs                          1,286
   Total                            $ 183,959




                       -19-
      APPENDIX

Role Models America, Inc

Response to Draft Report




          -20-
       Appendix




-21-
       Appendix




-22-
                                                                                           Appendix

RMA Executive Summary and Statements of Material Facts:

   SPECIFIC FINANCIAL MANAGEMENT OVERVIEW AND STATUS OF PROGRAM

Role Models America, Inc. (RMA) questions whether RMA is being given fair credit for the
organization’s accomplishments, or evaluated and treated fairly and consistently when compared
to other Department of Labor grantees; especially grantees at the same or comparable stage(s) of
start-up and development as RMA. Rather than confirming the status of development and
controls that RMA had informed the OIG of, and encouraging RMA to continue and proceed
with its continuing improvements, the OIG’s report as presented insinuates that RMA was/is not
exercising reasonable financial controls, does not have the capacity or know how to do basic
accounting or implement basic accounting and financial controls, etc. This is not true!!

The “CPA firms/qualified accountants” that the OIG suggests are necessary to accomplish the
basic level of accounting and financial controls have themselves acknowledged the
functionality/legitimacy of the RMA system, even while making helpful hints for improving the
system. RMA has used and will use CPA’s as needed for support, and RMA is in the process of
recruiting and hiring a bookkeeper. RMA also has significant internal capabilities. RMA has
business management staff that have developed detailed line item budgets (including a 25 page
line item budget for RMA …. which caused delays in the accounting systems and financial
controls being put into place), installed and implemented working accounting systems (including
RMA’s), and have excelled in a variety of technical and mathematical and business academic and
professional challenges (that included the use of complex linear and matrix algebra, trigonometry,
calculus, statistics, accounting and other financial management mathematical tools). They have
started up multiple businesses, programs and manufacturing plants. The fact that the OIG showed
up early, while the accounting systems and procedures were being developed and data entry was
in progress (therefore the system and records were incomplete) does not in any way reflect on the
ability of RMA’s staff to implement excellent internal controls. It simply means that the OIG
arrived before the system and data entry were complete!!

Any reasonable evaluation or report of the “return” that RMA is providing U.S. citizens on their
invested tax dollars must consider the following:

   •   RMA was faced with the choice of securing a lease and starting operations within a few
       months of receiving word of the approved grant or losing the grant funding. Grant
       funding was awarded in June 2000. A lease and start of “operations” was required by
       June 30, 2000 or RMA could have lost the grant funding.
   •   RMA recruited staff; upgraded all facilities needed by RMA to be usable/inhabitable
       (including installation of fire safety equipment in the dormitory); put all of the necessary
       contracts in place (including food service, barber, medical director, pest control, dry-




                                                -23-
                                                                                       Appendix

    cleaning, refuse/waste removal, etc.); furnished all buildings (including the dorm, a student
    union, classrooms and all offices); recruited 50-75 cadets and arranged for their arrival;
    purchased all uniforms, school supplies, etc.; obtained a State of Maryland certification for
    the Academy; cleaned and fixed up the mess hall and kitchen, passed the Maryland Health
    Department inspection and obtained a state of Maryland food service license; obtained all
    of the textbooks and school supplies needed; cleaned, set-up and filled a library with about
    3,000 to 4,000 books; and much, much more … and opened the National Role Models
    Academy as scheduled on October 14, 2000!!
•   RMA has poured about $5,000,000.00 back into the local economy in one year!!
    Much more than the Local Redevelopment Authority (LRA) of the past three to
    four years has put back into the economy in their entire three to four year reign!!
    This LRA is RMA’s contentious landlord, PenMar Development Corporation (PMDC).
•   A set of skill evaluation standards, a job description and recruiting ads have been
    developed for retaining the best bookkeeper possible. Skill evaluation standards have also
    been developed/are being developed for other staff candidates.
•   RMA staff developed a detailed line item budget (25 pages) and budget system
    during August/September 2000, using spreadsheets to help in planning and
    operations!!
•   RMA staff implemented the accrual accounting system, recovered (6) months of
    accounting data entry backlog, and completely organized the business office in
    about (3-4) months; even though RMA started off 4-6 months behind in the
    business management area of the organization, because recruitment and orientation of
    the person to fill that slot did not come to fruition until the August-September 2000
    timeframe (while pressing toward starting up on time), and despite the time and effort that
    was lost to the program in order to conduct the OIG audit! RMA recognizes and has
    always acknowledged that the organization started without the benefit of having some of
    the things in place that RMA wanted to have in place before start-up; including: a
    functional accounting system, the business manager and a bookkeeper.
•   The accrual accounting system had been put into place by the RMA Staff and was
    functional; an audit trail was in place; checks and bank statements were organized
    and filed numerically by account number and by statement date respectively; a
    vendor files system had been developed and was in place; several excellent contracts
    for services had been written, negotiated and signed (food service, health director, barber,
    etc.); a heavy duty safe was in use; a draft standard consulting/contractor contract had
    been developed and issued (to be refined and used as the template for all RMA contracts);
    procedures and forms were being developed; and many other improvements were
    ongoing or planned … before the DOL audit ever occurred!!! If RMA is “guilty” of
    anything as it relates to these things, it is that accounting system data entry and
    fine-tuning, development of procedures, and filing were not already completed (although
    they were in progress). Good business practices were used, while RMA put better




                                            -24-
                                                                                     Appendix

    business practices into place!! What did DOL expect under the circumstances and
    after only (6) months of operation?! What has DOL found at other grantee sites,
    which are at levels of organizational development comparable to RMA’s?!
•   All financial reports provided by RMA to DOL were always acknowledged to be
    “best estimates” using crude methods and incomplete data, and never represented
    to be “strict/exact” accounting calculations, while RMA put the accrual accounting
    system in place!! This is documented in writing in various reports/responses to
    DOL!!! RMA is now ready to begin issuing financial reports generated using the
    computerized financial accounting system (QuickBooks Pro 2001)!!
•   RMA is currently ready to start writing and recording checks directly into the
    accounting system, and printing the checks using the computerized accounting
    system!!
•   Every discussion, report and decision needs to be put into context and perspective
    by the facts that the Department of Labor, Office of the Inspector General audited
    RMA between (3) and (6) months, or more, before the normal first year audit
    period; at the (9-10) months program point …… (about 6-7) months actual operations
    point of a crash start-up (that was certainly not a normal start-up); and with virtually
    ZERO technical assistance/program support to that point from DOL/ETA!!! The
    insinuation is that DOL would now exaggerate the severity of and “penalize” RMA for
    “problems” that resulted in part from the failure of the Department to provide constructive
    and engaging technical or programmatic support; which the Department was obligated to
    provide by Congressional mandate!!!
•   The required context and perspective must by necessity also include consideration of
    the fact that the main “issue” raised by the audit, the use of “indirect/overhead
    costs” had been approved and authorized in writing by DOL, with no written
    clarifying instructions or limitations (see attachments 7A & 7B)!! RMA never tried
    to hide the use of the approved “indirect costs”!! Furthermore, while a normal audit
    might lead to a review of 5-10% of an organization’s financial records, the
    DOL/OIG reviewed approximately 40-50% of RMA’s financial records!! If
    debatable housing allowance, legal costs, and approved (but recalled indirect expenses) are
    set aside, the OIG really has questions/issues with about $15,000 or less!! Which is
    equivalent to about one-quarter of one percent (0.25% or 0.0025) of expenditures!!
•   To a large extent, the “findings” outlined in the DOL/OIG audit are simply
    confirmations or specific details of information provided by RMA as part of (15)
    pages of responses to an (8) page questionnaire sent by and returned to the OIG
    before the audit, and subsequent conversations with the OIG auditors!!
•   There was one main instance of excessive cash on hand, during a one to two month
    period during which RMA paid several large bills of which and a double payment of
    rent to the landlord. The timing of cancellation and/or payment for some of these
    bills could not be exactly fixed (i.e. disputed rent, payroll taxes, etc.). This situation




                                           -25-
                                                                                 Appendix

    was an unusual situation faced by RMA; and RMA after all, did not have a lot of
    operating experience at that point (about 6 months operating experience). Neither
    had RMA ever really reached a point of “normal daily operations”, where three
    days of cash could be closely estimated. Once the excessive cash position issue was
    brought up by the OIG auditors, RMA followed the advice and instruction of the
    auditors and DOL to reduce the cash position by paying bills without additional
    drawdowns.
•   Those who did not already know better would hardly have a clue that RMA has
    made the progress or has the accomplishments that are outlined in this letter. This
    is a smear against RMA by insinuation and omission!!!
•   RMA prefers to cooperate with DOL to demonstrate the most excellent results possible,
    rather than to feel that RMA is always being forced into a defensive posture.




                                         -26-
                                                                                       Appendix

RMA Requests:

RMA believes that it has the right to request and does request the following:

   • A copy of the report sent to the Congressperson that requested the audit (Congressional
       Report). RMA asserts its Freedom of Information Act rights.
   •   That the OIG provide a written statement as a part of the final audit report, which
       acknowledges that no instances of fraud or abuse were identified.
   •   That the OIG provide a written statement as a part of the final audit report that
       acknowledges the high levels of RMA financial records reviewed (40-50%).
   •   A written statement acknowledging the early timing of the RMA audit (6-8 months) as
       compared to normal program audit timing (1 year).
   •   A written statement as a part of the final audit report, which acknowledges the positive
       aspects of the RMA program progress, in terms of moving towards the grant objectives,
       improving the local economy and organizational development and financial controls, etc..
   •   A written statement as a part of the final audit report, acknowledging that the Indirect
       Costs referred to in the report, and which were stated as not being allowed…..were in fact
       approved as a part of the grant signed by DOL and the Grant Officer (although approval
       may have been unintentional).
   •   A written statement as a part of the final audit report, which acknowledges that RMA’s
       financial controls meet or exceed those of the normal/average DOL grantee at comparable
       stages of development, etc..
   •   A written statement as a part of the final audit report, which acknowledges that account
       reconciliations have been performed up to and including the audit period, and that these
       reconciliations were/are available to the auditors.




                                               -27-
                                                                                        Appendix

Table XX: RMA Itemized Response/Comments by Section to the DOL/OIG Audit
DOL Audit Rpt. Section,         Finding/Statement/Recommendation    RMA Response/Comments
Pg. & Par.

Executive Summary               ..The program was audited for the   RMA was audited and the audit
pg. ii, par. 1, 2               period June 05, 2000 through        report is presented as if RMA has
                                March 31, 2001…This grant is for    been operating for a number of
                                (2) years, ending May 31, 2002…     years, and/or was being audited at
                                                                    the normal time frame of (1) year;
                                                                    when in fact RMA’s total life span
                                                                    was only 6-9 months at the time of
                                                                    the audit and the audit was 3-6
                                                                    months before the end of RMA’s
                                                                    first year!! The OIG report never
                                                                    describes the real context and
                                                                    perspective of the audit conducted!!
                                                                    The OIG’s failure to clarify the
                                                                    context of the audit slants the entire
                                                                    audit towards a series of unfair/false
                                                                    “findings”, “conclusions” and
                                                                    “recommendations” !!

Executive Summary               Finding #1: Indirect costs were     The use of “indirect/overhead costs”
(Results of the Financial and   improperly charged to the DOL       had been approved and authorized
Compliance Audit), pg. ii,      grant…..                            in writing by DOL!! No clarifying
par. 2                                                              instructions or limitations were
                                                                    provided, despite more than one
Findings and                                                        request from RMA (see attachments
Recommendations, pg. 6, 7,                                          7A & 7B)!! RMA never tried to
8                                                                   hide the use of the approved
                                                                    “indirect costs”!! The OIG report
                                                                    never mentions or deals with the fact
                                                                    of the DOL approval of the use of
                                                                    indirect costs, nor the failure of
                                                                    DOL to provide clarification of the
                                                                    rules for the use of indirect costs
                                                                    before the audit. The OIG is wrong
                                                                    to insinuate that RMA was somehow
                                                                    negligent, fraudulent or otherwise
                                                                    abusive of grant funds, by omitting
                                                                    these facts.
Table XX: RMA Itemized Response/Comments by Section to the DOL/OIG Audit




                                                      -28-
                                                                                       Appendix

DOL Audit Rpt. Section, Pg.     Finding/Statement/Recommendation   RMA Response/Comments
& Par.
Executive Summary               Finding #1: Indirect costs were    RMA believes that the only fair way
(Results of the Financial and   improperly charged to the DOL      to present the use of indirect costs
Compliance Audit), pg. ii,      grant…..                           would be as an “observation” of an
par. 2 (cont.)                                                     issue that requires administrative
                                                                   clarification and resolution, not as a
Findings and                                                       “finding” (suggesting that RMA has
Recommendations, pg. 6, 7,                                         purposely done something that
8 (cont.)                                                          RMA should not have done).
                                                                   Furthermore, the funds were used to
                                                                   compensate the CEO and President
                                                                   of RMA. These persons have a
                                                                   definitive right to compensation!!
                                                                   They did not receive salaries from
                                                                   RMA, but rather “indirect” funds
                                                                   were used to compensate them
                                                                   through the College Corp
                                                                   Management Services, Inc., a parent
                                                                   corporation to RMA, which
                                                                   received the “indirect” funds as fees
                                                                   for oversight services rendered. The
                                                                   question was whether that
                                                                   compensation should have been as
                                                                   RMA salaries (direct costs) or
                                                                   College Corp. fees (indirect costs).
                                                                   They did not receive any more
                                                                   compensation as indirect than they
                                                                   could have received as direct
                                                                   salaries …. and used any way they
                                                                   pleased!! Therefore, RMA contends
                                                                   that this situation should be dealt
                                                                   with as an “observation” of an issue
                                                                   requiring administrative resolution,
                                                                   and not as a “finding”, especially
                                                                   since RMA notified the OIG of this
                                                                   situation. It was not found. It was
                                                                   reported (Q-9/Q-60 of the OIG
                                                                   Questionnaire Response)!!

Table XX: RMA Itemized Response/Comments by Section to the DOL/OIG Audit
DOL Audit Rpt. Section, Pg. Finding/Statement/Recommendation       RMA Response/Comments
& Par.




                                                      -29-
                                                                                           Appendix

Executive Summary               Finding #2: Internal control problems   RMA verbally reported to the OIG
(Results of the Financial and   exist in RMA’s accounting system        auditors, before their arrival, that
Compliance Audit), pg. ii,             a.    Entries not recorded       RMA had a significant backlog of
par. 3                                                                  accounting system data entries (due
                                                                        to staffing shortages); but would
Findings &                                                              catch up on data entry during the
Recommendations, pg. 9,                                                 audit timeframe!! RMA did catch
par. 1, 6                                                               up on data entry and bank
                                                                        reconciliations, near the end of the
                                                                        audit, as RMA had committed to
                                                                        do!! The OIG report insinuates that
                                                                        RMA presented a system with data
                                                                        entry backlogs as complete, and as
                                                                        such insinuates that the RMA staff
                                                                        does not have the understanding of
                                                                        accounting to understand that data
                                                                        entry was not complete when the
                                                                        audit started or to perform the data
                                                                        entries needed. This is not true!!
                                                                        RMA did not represent the system
                                                                        as having all data entry completed.
                                                                        RMA reported to the OIG auditors
                                                                        the capabilities of the accounting
                                                                        system that RMA was setting up as
                                                                        part of the OIG Questionnaire, but
                                                                        never meant that data entry was
                                                                        complete; and specifically stated
                                                                        during conversations with the
                                                                        auditors that data entry was not
                                                                        complete!! The OIG auditors did
                                                                        not “find” this! It was reported
                                                                        before the audit started!!

                                                                        The fundraising account is not an
                                                                        RMA account, it is a College Corp.
                                                                        account; which RMA has no
                                                                        responsibility for!!




                                                      -30-
                                                                                            Appendix

Table XX: RMA Itemized Response/Comments by Section to the DOL/OIG Audit
DOL Audit Rpt. Section, Pg.     Finding/Statement/Recommendation        RMA Response/Comments
& Par.
Executive Summary               Finding #2: Internal control problems   RMA maintains an account to track
(Results of the Financial and   exist in RMA’s accounting system        unexpected expenses. Since the goal
Compliance Audit), pg. ii,      b.     Entries recorded to wrong        of RMA is to replicate the
par. 3                                 accounts                         demonstration model, this data
                                                                        represents crucial information for
Findings and                                                            planning future start-ups and
Recommendations, pg. 9,                                                 operations. “Contingencies” or
par. 1, 6                                                               unexpected expenses can be
                                                                        estimated. RMA chose to call this
                                                                        account “Contingencies”. The OIG
                                                                        auditors did not agree with the name
                                                                        “Contingencies”. RMA is willing to
                                                                        choose a different name for this
                                                                        account, so as not to interfere with
                                                                        the technical accounting definition of
                                                                        “Contingencies”. RMA reserves the
                                                                        right to keep the account with an
                                                                        appropriate name change. The vast
                                                                        majority of the “posted … to wrong
                                                                        accounts” were entries to this
                                                                        account. There were also a few
                                                                        duplicate entries, due to a glitch in
                                                                        the accounting software and a few
                                                                        transactions which required
                                                                        interpretation as to which account to
                                                                        post to. The duplicates were
                                                                        acknowledged by RMA and
                                                                        corrected. Interpretations are
                                                                        within the realm of RMA’s right to
                                                                        run its organization. The OIG is
                                                                        wrong to insinuate that widespread
                                                                        postings to wrong accounts exists
                                                                        throughout the system!! It does
                                                                        not!! A more fair report would note
                                                                        the “Contingencies” account
                                                                        specifically and acknowledge that
                                                                        the OIG recommends changing the
                                                                        name, that RMA is willing to do so;
                                                                        and to note the duplicate entries,
                                                                        which were acknowledged and
                                                                        corrected.
Table XX: RMA Itemized Response/Comments by Section to the DOL/OIG Audit


                                                      -31-
                                                                                              Appendix

DOL Audit Rpt. Section, Pg.     Finding/Statement/Recommendation          RMA Response/Comments
& Par.
Executive Summary               Finding #2: Internal control problems     RMA acknowledges that the FSR
(Results of the Financial and   exist in RMA’s accounting system          was not as accurate as it should have
Compliance Audit), pg. ii,      3.     RMA did not provide                been. The overstatements were
par. 3, pg. iii, par 1                 documentation for $2 million in    caused by the improper inclusion of
                                       accruals, for the quarter ending   funds “committed” under contract,
Findings and                           03-31-01                           but not expended by tendering of
Recommendations, pg. 9,                                                   checks. However, RMA had
par. 1 and pg. 10                                                         requested clarification on how the
                                                                          DOL FSR form should be filled out
                                                                          and had not received a definitive
                                                                          answer at the time of that report. All
                                                                          financial reports provided by RMA
                                                                          to DOL were always acknowledged
                                                                          to be “best estimates” using crude
                                                                          methods and incomplete data, and
                                                                          never represented to be
                                                                          “strict/exact” accounting
                                                                          calculations, while RMA put the
                                                                          accrual accounting system in place!!
                                                                          This is documented in writing in
                                                                          various reports/responses to DOL!!
                                                                          This system is now in place and
                                                                          RMA provided the OIG auditors
                                                                          with corrected financial data
                                                                          through
                                                                          03-31-01 at the end of the audit.
                                                                          RMA is now ready to begin issuing
                                                                          financial reports generated using the
                                                                          computerized financial accounting
                                                                          system (QuickBooks Pro 2001)!!
                                                                          RMA was never instructed to save
                                                                          “working papers” for the FSR’s.
                                                                          RMA did catch up on data entry
                                                                          and bank reconciliations, near the
                                                                          end of the audit, as RMA had
                                                                          committed to do, and bank
                                                                          reconciliations were provided to the
                                                                          OIG auditors!! The documents
                                                                          provided should be acknowledged
                                                                          and the overstatement clarified and
                                                                          put into context!!
Table XX: RMA Itemized Response/Comments by Section to the DOL/OIG Audit




                                                       -32-
                                                                                            Appendix

DOL Audit Rpt. Section,         Finding/Statement/Recommendation        RMA Response/Comments
Pg. & Par.
Executive Summary               Finding #2: Internal control problems   There was one main instance of
(Results of the Financial and   exist in RMA’s accounting system        excessive cash on hand, during a one
Compliance Audit), pg. iii,         d. Excessive cash balance ….        to two month period during which
par. 1                                                                  RMA paid several large bills of
                                                                        which and a double payment of rent
Findings and                                                            to the landlord. The timing of
Recommendations, pg. 9,                                                 cancellation and payment for some
par. 1, 2, 3, 4                                                         of these bills could not be exactly
                                                                        fixed (i.e. disputed rent, payroll
                                                                        taxes, etc.). This was an unusual
                                                                        situation faced by RMA; and RMA
                                                                        after all, did not have a lot of
                                                                        operating experience at that point
                                                                        (about 6 months operating
                                                                        experience). Neither had RMA ever
                                                                        really reached a point of “normal
                                                                        daily operations”, where three days
                                                                        of cash could be closely estimated.
                                                                        Once the excessive cash position
                                                                        issue was brought up by the OIG
                                                                        auditors, RMA followed the advice
                                                                        and instruction of the auditors and
                                                                        DOL to reduce the cash position by
                                                                        paying bills without additional
                                                                        draw-downs.

                                                                        Please refer to the Excessive Cash
                                                                        Balances Summary for a more
                                                                        complete discussion.




                                                      -33-
                                                                                             Appendix

Table XX: RMA Itemized Response/Comments by Section to the DOL/OIG Audit
DOL Audit Rpt. Section, Pg.     Finding/Statement/Recommendation         RMA Response/Comments
& Par.
Executive Summary               Finding #3: Review of direct costs…      1.    Documentation provided since
(Results of the Financial and   resulted in DOL questioning $87,910.00         draft report for $56,000.00+
Compliance Audit), pg. iii,     … unable to provide adequate                   in legal fees
par. 2                          supporting documentation….               2.    Documentation provided since
                                                                               draft report for $16,000.00+
Findings and                                                                   in hotel expenses
Recommendations,                                                         3.    Documentation provided since
pg. 11, 12                                                                     draft report for $10,000.00
                                                                               for the high school curriculum
                                                                         4.    RMA will seek to provide
                                                                               final documentation for
                                                                               $9,189.00 in consulting fees
                                                                               with the RMA response to the
                                                                               DOL audit
                                                                         5.    RMA acknowledges that
                                                                               documentation for $1,223.00
                                                                               for staff travel cannot be
                                                                               provided. The persons that
                                                                               traveled are no longer RMA
                                                                               employees.

Executive Summary               Finding #4: Travel costs were incurred   RMA acknowledges that a minimal
(Results of the Financial and   prior to the grant period …              travel expense of $387.00 was
Compliance Audit), pg. iii,                                              actually spent just before the grant
par. 3                                                                   period started, and that RMA must
                                                                         seek approval from the grant
Findings and                                                             agency!!
Recommendations, pg. 13




                                                      -34-
                                                                                                 Appendix

Excessive Cash Balances Summary

It is required by 29 CFR, that the draw down of funds be “limited to the minimum amounts needed and must be
timed to be in accordance with the actual, immediate cash requirements of the organization.”

RMA has experienced a great challenge with its Landlord and the terms of it’s Lease, much the same as many Job
Corps programs have faced with their Landlords. Specifically, we have reported to the Department of Labor and
the Department of the Army, (see attachment #1), that the Landlord (Pen Mar Development Corp.) has
overcharged RMA for twice as many square feet than we have occupied and refuses to provide us with a long term
lease agreement or purchase options as Pen Mar has provided to another tenant, International Masonry Institute.
Further, Pen Mar has refused to cut the grass and provide certain basic required repairs and maintenance functions
covered under the lease.

Despite Congressional Mandate in RMA’s legislation calling for the Department of Labor to provide “Technical
Assistance”, RMA has received little or no assistance from the Department in getting the Army, which to date, still
owns the property, to work out an amicable solution to the landlord/tenant dispute. Therefore, sometime on 22
February 2001, Pen Mar filed a lawsuit against RMA to force RMA to remove 2 flagpoles in front of our school
headquarters (see attachment #2). Despite Maryland and U.S. laws requiring both State and U.S. flags to be
flown in front of schools, Pen Mar filed the lawsuit and stated that it would certainly not perform any of the
requirements under the lease agreement until the flags were removed. This set off a “stand off” case pending.

Later that day, the Court set the bond, put for a whopping $643,000.00 (see attachment #5 for a copy of bond
and 5B for a copy of cashier check). In anticipation of the “good ‘ole boy” Court climate in Washington County,
RMA had enough funds to cover 2 to 3 times of the quarterly rent in case the court increased the bond from one
quarter rent payment. Fortunately RMA had approximately $900,000.00 on hand and the $643,000.00 was
covered. Please refer to the copy of the cashier check dated the same afternoon of the Court hearing on 29 June
2001.

Subsequently, RMA received some temporary good news. On July 26, 2001 the Court ordered Pen Mar enjoined
(stopped) from further suing RMA until the full matter is heard in Circuit Court (see attachment #6). However,
RMA was once again served notice of an appeal for by Pen Mar’s Attorney’s to the Court to overturn it’s previous
decision to stop Pen Mar from further suing RMA. On September 7, 2001, Friday, the motion was heard. The
Court decided to terminate its order to stop Pen Mar and remand the matter or decision back to the District Court
Judge. RMA’s position has been that the $643,000.00 was for the April quarter (3 months advance) and the July
quarter (3 months advance). Therefore, we had in effect paid up through October 12, 2001, under the bond. The
case is pending a follow-up hearing.

The gist of the matter is that RMA was cited for one (1) time in which it had a larger sum of money on hand which
was on the basis of EMERGENCY CONTINGENCY. No one could predict the amount of the bond the Judge
would order set. In fact, the reason the matter was remanded back to the District Court was for that same Judge to
explain why he set the amount he did. RMA’s position is that it was for 2 quarterly rental payments in advance
(April thru October). Pen Mar somehow claims that it was some escrow to cover future damages, which is




                                                       -35-
                                                                                                     Appendix
ridiculous. It is for this reason and the aforestated reason, only, RMA was found not to be in compliance under 29
CFR, ss 95.22 G20(b). Had RMA not had sufficient funds on hand at the time, RMA could have been evicted and
the entire grant jeopardized.

Finally, RMA has filed another action in Federal Court to block Pen Mar aggressive actions. I recently asked for a
State facility to relocate our Academy. The cost would be minimal to zero. A final determination is expected in the
very near future

                                                     SUMMARY

 Role Models America, Inc. pledges to work closely with the Contract Office and the Grants Officer to
improve all areas of financial controls requiring improvement, and to avoid excessive cash balances in the
future, but must state that, despite provisions for technical assistance, it sometimes takes a while to get a reply or
return call from DOL/ETA. We did not have the luxury of time with respect to the bond issue and amount. In
addition, a list of procedures and polices to be written has been issued, and they are being written even as
RMA provides this response to the DOL audit.

While the College Corps may one day be compared to the Peace Corps, in which we opened October 14, on the 40th
anniversary of the Peace Corps, compared eventually to the Ameri-Corps and of course to the Job Corps, which has
been in existence over 35 years (1965), we are still within our first year of operation. Only once did we not
comply with 29 CFR, ss 95.22(b), and the reason as stated was for “emergency contingency.”

Thank you for your fairness and reconsideration of certain report items, and we look forward to working closely
with DOL in making the College Corps/National Role Model Academy (NRMA) a great success!

Sincerely,



Dr. Robert L. Alexander
President

Dr. RLA

Enclosures: 1. Frederick News Post Article (Area usage invoiced) par. #2, 6 &12
             2. Copy of Lawsuit
             3. Copy of check
             4. Exhibit 4A & 4B (PMDC Renovation work)
             5. Copy of Bond
             5B.Copy of Cashier’s check
             6. Enjoinder against PMDC
     7 A & B. Copy of approved indirect costs document and request for clarification




                                                         -36-
                                ADDENDUM

Note: The costs questioned by the auditors in this audit report and disallowed by
the Grant Officer have been resolved through a Settlement Agreement dated
November 16, 2006.
